NO. 20-394
IN THE

&wane Court of the Mintteb Eptateg
DAVID ALAN SCHUM,
Petitioner
v.
FORTRESS VALUE RECOVERY FUND I, L.L.C.;
SCHULTE ROTH & ZABEL, L.L.P.; LAWRENCE S. GOLDBERG;
DANIEL BERNARD ZWIRN; PERRY GRUSS;
HIGHBRIDGE/ZWIRN SPECIAL OPPORTUNITIES FUND, L.P.;
BERNARD NATIONAL LOAN INVESTORS, LIMITED,
Respondents

On Petitio for a Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit
REPLY BRIEF OF PETITIONER

David A. Schum, Pro Se
4149 Lovers Lane, Apt. C
Dallas, Texas 75225
469-513-2177
Email: watchradio@aol.com
November 5, 2020

REPLY BRIEF OF PETITIONER
A.

Respondent effectively concedes that fraud on the court was committed.

Respondent concedes that Bernard National Loan Investors, Ltd. ("BLNI") was the only
lender for the Renaissance Radio, Inc. ("RRI") Financing Agreement (Br. in Opp. 6).
Respondent does not dispute any of Petitioner's points of fraud as stated in the petition (Pet.16)
regarding BNLI was a foreign company, the BNLI domicile was purposely never disclosed by
Respondent and use of a foreign lender was specifically prohibited by Schum. Respondents do
not dispute that Judge Houser was deceived into thinking Highbridge/Zwirn Special
Opportunities Fund, L.P. ("DBZ" or "Zwirn"), domiciled in Delaware, was the lender (Pet. 1) as
reflected in her Finding of Facts and Conclusions of Law (Pet. 8).
Respondent's argument that "The Omission of the Lender's Domicile Was Not Fraud
(Br. in Opp. 19-21) fails in that it ignores the fact that Schum specifically prohibited use of a
foreign lender under the contract. Respondent makes arguments that it doesn't matter that
Schum's terms of the contract were violated based upon FCC rules and statutes which have no
bearing on the loan contract. Contract terms apply to all parties to a contract.
Respondent also argues that Schum knew that BNLI was the lender when the Exit
Financing Facility was executed (Br. in Opp. 21) but they concede they purposely did not
disclose the domicile of the lender to the court or to Schum. As the record reflects, Judge Houser,
Schum and the attorneys relied on sworn testimony on behalf of Zwirn and documentation
provided by Respondent which included a clause that required disclosure of the use of a foreign
lender (Pet. 8-9). Respondent purposely did not make the required contractual disclosure of the
use of a foreign lender. The Financing Agreement contract was a result of fraud on the court.

1

B.

Respondent lists unrelated "Prior Related Litigation."

Schum and others were suspicious of Zwirn's ownership during the Watch bankruptcy
proceeding and they refused to disclose the ownership to the FCC when required. They
hiding relevant information from Schum, the Bankruptcy Court and the attorneys and it

were

turned

out to be incriminating. Respondent observes (Br. in Opp. 6-9), Schum and others involve

d with

his companies who were all wiped out by the fraud, sought to force Zwirn to abide by the

terms

of the bankruptcy sale where Zwirn took control of the assets of The Watch, Ltd.

via a

bankruptcy auction.
Respondent concedes Zwirn, not BNLI, fraudulently represented itself to be the lender
and won the auction (Br. in Opp. 6). The terms of the auction included the necessity to

be an

eligible FCC licensee in order to participate. Zwirn fraudulently won the auction and

then

refused to disclose their ownership to the FCC. Schum and the others attempted to force

the

disclosure but they were denied standing as the respondent disclosed (Br. in Opp. 8).
All of the actions respondent refers to were initiated and decided prior to Schum finding
out the original lender, BNLI was a foreign company, Zwirn was never a lender and Zwirn
in violation of the foreign ownership rules as a result of Jeffrey Epstein's ownership involve

was

ment

(Pet. 14). Zwirn's attorneys were contractually and ethically required to disclose the use

of an

illegal lender, BNLI, in every proceeding but they purposely did not. Schum had and still

has a

fiduciary responsibility to everyone that lost their investment to get the frauds resolved.

All of

the legal actions that Respondent argues are relevant to the contract fraud that is before the

court

were initiated and/or decided before the discovery of the use of an illegal lender and that Epstein
was laundering money through Zwirn.

2

Respondent Claims No Circuit Conflict Exists.
Respondent claims no circuit conflict exists (Br. in Opp. 10-13) but they do not site any
cases involving Federal Rule of Civil Procedure 60(d)(3) that found that fraud on the court
time-barred as the Fifth Circuit upheld in this case. Petitioner disagrees. As pointed out

was

in the

petition (Pet. 1):
"A final judgment can also be overturned by a motion, pursuant to Federal Rule of Civil
Procedure 60(d)(3), which is incorporated into the Bankruptcy Rules by Rule 9024, to
vacate a judgment based upon fraud on the court."
"Fraud on the court" is a claim that exists to protect the integrity of the judicial process,
and therefore a claim for fraud on the court cannot be time-barred. See 12 JAMES WM.
MOORE ET AL., MOORE'S FEDERAL PRACTICE ยง 60.21[4][g] & n. 52 (3d ed.2009)
(citing Lockwood v. Bowles, 46 F.R.D. 625, 634 (D.D.C.1969)). Bowie v. Maddox, 677
F. Supp. 2d 276, 278 (D.D.C. 2010).
The Fifth Circuit ruling that Petitioner's motion was time-barred is in conflict with other
Circuit rulings as well as Supreme Court ruling in Hazel-Atlas Glass Co. v. Hartford-Empire

Co.,

322 U.S. 238, 251, 64 S. Ct. 997, 88 L. Ed. 1250 (1944).
Respondent claims The Code Barred Schum's Motion.
Respondent claims Petitioner was time-barred under various sections of the code (Br. in
Opp. 14-15). Petitioner claims and asks this Court to verify that fraud on the court has

to be

treated as the egregious violation of the legal process that it is and 60(d)(3) takes precede

nt over

any time limits imposed under other sections of the code.
Congress was resolute about imposing time limits for Bankruptcy Code ("Code") ยง1144,
Code ยง 502(j), Rule 60(b)(2), etc. Congress purposely did not impose a time limit on fraud

on the

court claims brought under 60(d)(3) due to the serious nature of the fraud involving

sworn

officers of the court and the Circuit Court's and the Supreme Court have held time limits

do not

3

apply (Pet. 2-5). The Texas Disciplinary Rules of Professional Conduct exist because honest,
ethical attorneys felt the need to protect the integrity of the legal profession.
"Attorneys are forbidden to "engage in conduct involving dishonesty, fraud, deceit or
misrepresentation" (see Texas Disciplinary Rules of Professional Conduct rule 8.04
(a)(3)) and they are obligated to disclose any fraud "until remedial legal measures are no
longer reasonably possible" (see Texas Disciplinary Rules of Professional Conduct rule
3.03 (c))" (Pet. 4-5).
The rules of conduct for attorneys dovetails with 60(d)(3) in that there is no time limit

for the

attorneys to come clean.
Respondent is bothered by "Schum's Massive Delay" in bringing the motion to reopen
the bankruptcy case stating:
"The bankruptcy court properly rejected Schum's lame explanation, noting his sevenyear delay between discovering the new "evidence" and his belated motion to reopen the
bankruptcy case (i.e., Schum's asserted need for more time to investigate and gather
evidence)." (Br. in Opp. 16).
Petitioner shows this Court addressed the time and effort defense in Hazel-Atlas:
"The Circuit Court did not hold that Hartford's fraud fell short of that which prompts
equitable intervention, but thought Hazel had not exercised proper diligence in
uncovering the fraud and that this should stand in the way of its obtaining relief. We
cannot easily understand how, under the admitted facts, Hazel should have been expected
to do more than it did to uncover the fraud. But even if Hazel did not exercise the highest
degree of diligence Hartford's fraud cannot be condoned for that reason alone." HazelAtlas Glass Co. v Hartford-Empire Co., 322 U.S. 238, 64 S.Ct. 997 (1944). (Pet. 20-21).
E.

Respondent claims Petitioner is trying to unwind the confirmation plan.

Petitioner states "Returning fees due under the Financing Agreement, as Schum sought,
would unwind critical parts of the confirmed plan more than a decade after the parties
consummated it. Schum denies trying to unwind the plan and only seeks to deny the parties
profited from the fraud the fruit from their fraud in keeping with the Eleventh Circuit's
Energies ruling. As set out in the Petition (Pet. 5):

4

that

Global

"Schum's motion did not seek to have the reorganization plan revoked. Schum's motion
was supported with a sworn affidavit and record evidence. The Eleventh Circuit Court
recognized the need to not allow those that intentionally and maliciously commit fraud
and fraud on the court to benefit or profit from fraudulent contracts or actions. In Global
Energies,LLC the Eleventh Circuit Court did not take the attorney's (Pugatch)
unprofessional conduct lightly when the court ruled:
"The bankruptcy court then shall conduct any hearings necessary in the exercise of all its
powers at law or in equity and issue appropriate orders or writs, including without
limitation orders requiring an accounting and disgorgement, orders imposing sanctions,
writs of garnishment and attachment, and the entry of judgments to ensure that Chrispus,
Juranitch, Tarrant, and Pugatch do not profit from their misconduct and abuse of the
bankruptcy process." In re Global Energies, LLC (Published), No. 0:12-cv-61483-KMW,
Justia 1411129135,cal 1, August 15, 2014.
F. The Decision Below Is Incorrect and Petitioner's Questions Warrant Review.
The decision by the Fifth Circuit to uphold the time bar for a motion brought under
Federal Rule of Civil Procedure 60(d)(3) for fraud on the court cannot be allowed to stand

as it in

direct conflict with other Circuit Courts' as well as the Supreme Court's well established rulings.
Allowing the time-bar ruling renders 60(d)(3) toothless, The Texas Disciplinary Rules

of

Professional Conduct window dressing and the Supreme Court Hazel decision meaningless.
CONCLUSION

fr`

For the foregoing reasons and those stated in the petition for a writ of certiorari, the
petition should be granted.
Respectfully Sub

David A. Schum, Pro Se
4149 Lovers Lane, Apt. C
Dallas, Texas 75225
469-513-2177
Email: watchradio@aol.com
November 5, 2020

5

